No. 20-7284

In the Supreme Court of the United States
TYRELL CURRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF COMPLIANCE
I, Daniel E. Jones, counsel for Amicus Curiae and a member of the Bar of this
Court, hereby certify that, according to the word-count tool in Microsoft Word, the
Brief of the Florida Association of Criminal Defense Lawyers as Amicus Curiae in
Support of Petitioner consists of 3,719 words, including footnotes and excluding the
sections enumerated by Rule 33.1(d). The Brief therefore complies with Rule 33.1(g).

/s/ Daniel E. Jones
Daniel E. Jones
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
djones@mayerbrown.com

